BARNEY FRANK, MA, CHAIRMAN
                                         ~. §V. Jl~olll)'r    of   i~rpl'C9'r l1tntib cll'   SPENCER BACHUS, Al, RA NKING MEMBER

                                      fli:ommittee on jfinllncllll ~el'biCCfS
                                        2129 l\npbllnt )!)oll~r Ill)(!i(r J!l ll ilbill {I
                                               [1&IMiJill{Itoli. til!!: 20515



                                                 September 23, 2010




         Mr. Osvaldo Luis Gratac6
         Acting Inspector General
         Export-Import Bank of the United States
         Suite 978
         811 Vermont Avenue, NW
         Washington, DC 20571

         Dear Mr. Gratac6:

                The Subcommittee on Oversight and Investigations and the Subcommittee on
         International Monetary Policy and Trade will hold a joint hearing entitled "Ex-1m Bank
         Oversight: The Role of Trade Finance in Doubling Exports over Five Years" at 4 p.m. on
         Wednesday, September 29, 2010, in 2220 Rayburn House Office Building. We are writing
         to confirm yom invitation to testify at this hearing.

                 The hearing will focus on the work of the Export-Import Bank of the United States
         ("Ex-1m Bank"), reviewing its activities to promote export growth, especially since the onset
         of the global financial crisis and recession, which made credit availability more challenging
         for businesses. The subcommittees will also assess what role Ex-1m Bank is and should be
         playing in the Obama Administration's National Export Initiative to double exports over
         five years. Your testimony should address the following issues or questions:

             •   Please briefly describe the oversight work you've conducted with respect to the Ex-
                 1m Bank and efforts to promote export growth. What key recommendations that
                 have not been implemented should be a priority for the Ex-1m Banl, going forward?
             •   How did the recent financial crisis and economic recession affect trade finance and
                 credit availability with respect to the Ex-1m Banl, and institutions that utilize the
                 bank? And as the financial sector stabilizes and the economy continues to recover,
                 what effect will that have on Ex-1m Bank's work?
             •   Please describe Ex-1m Bank's focus on providing trade finance to small businesses.
                 What key challenges need to be addressed to improve financing options so that U.S.
                 small businesses can compete globally?
             •   What role could the Ex-1m Bank play in achieving the Obama Administration's goal
                 to double exports over five years?
             •   Going into 2011 when the Export Import Bank Act is up for reauthorization, what
                 key areas should Congress be mindful of to ensme that the Ex-1m Bank is fully
                 empowered to maximize its potential in supporting the National Export Initiative?
             •   Please share any other observations or concerns that Congress should be aware of
                 relating to these issues.
Mr. Osvaldo Luis Gratac6
Page 2



      Please read the following material carefully. It is intended as a guide to yOill' rights
and obligations as a witness under the rules ofthe Conmlittee on Financial Services.

        The Form of your Testimony. Under rule 3(d)(2) of the Rules of the Committee on
Financial Services, each witness who is to testifY before the Committee 01' its
subcommittees must file with the Clerk of the Committee a written statement of proposed
testimony of any reasonable length. This must be filed at least two business days before
your appearance. Please note that changes to the written statement will not be permitted
after the hearing begins. Failure to comply with this requirement may result in the
exclusion of yOill' written testimony frOnl the hearing record . YOill' oral testimony should not
exceed five minutes and should summarize your written remarks. The Chair reserves the
right to exclude from the printed hearing record any supplemental materials submitted
with a written statement due to space limitations 01' printing expense.

       Submission of your Testimony. Please submit at least 50 copies of YOlU' proposed
written statement to the Clerk of the Committee not less than two business days in
advance of your appearance. These copies should be delivered to: Clerk, Committee on
Financial Services, 2129 Raybw'n House Office Building, Washington, D.C. 20515.

        Due to heightened secw'ity restrictions, many common forms of delivery experience
significant delays in delivery to the Committee. This includes packages sent via the U.S.
Postal Service, Federal Express, UPS, and other similar carriers, which typically arrive 3 to
5 days later than nonnal. The United States Capitol Police have specifically requested that
the Committee refuse deliveries by courier. The best method for delivery of your testimony
is to have an employee from yow' organization deliver your testimony in an unsealed
package to the address above. If you are unable to comply with this procedure, please
contact the Committee to discuss alternative methods for delivery of your testimony.

        The Rules of the Committee require, to the extent practicable, that you also submit
your written testimony in electronic form. The preferred method of submission of testimony
in electronic form is to send it via electl'onic mail to fsctestimonv@mail.house.gov. The
electronic copy of your testimony may be in any major file format, including WordPerfect,
Microsoft Word, 01' ASCII text for either Windows 01' Macintosh. Your electronic mail
message should specify the date and which committee or subcommittee you are scheduled
to testify before. You may also submit testimony in electronic form on a disk or CD-ROM at
the time of delivery of the copies of your written testimony. Submission of testimony in
electronic form facilitates the production of the printed hearing record and posting of your
testimony on the Committee's Internet site.

       YOUI' Rights as a Witness. Under clause 2(k) of rule XI of the Rules of the House,
witnesses at hearings may be accompanied by their own counsel to advise them concerning
their constitutional rights. I reserve the right to place any witness lmder oath. Finally, a
witness may obtain a transcript copy of his testimony given in open, public session, or in a
closed session only when authorized by the Committee 01' subcommittee. However, by
appearing before the Committee or its subcommittees, you authorize the Committee to
Mr. Osvaldo Luis Grataco
Page 3

make technical, grammatical, and typographical corrections to the transcript in accordance
with the rules of the Committee and the House.

       The Rules of the Committee on Financial Services, and the applicable rules of the
House, are available on the Committee's website at http://financialservices.house.gov.
Copies can also be sent to you upon request.

       The Committee on Financial Services endeavors to make its facilities accessible to
persons with disabilities. If you are in need of special accommodations, 01' have any
questions regarding special accommodations generally, please contact the Committee in
advance of the scheduled event (4 business days notice is requested) at (202) 225-4247;
TTY: 202-226-1591; or write to the Committee at the address above.

        Please note that space in the Committee's hearing room is extremely limited.
Therefore, the Committee will only reserve 1 seat for staff accompanying you dW'ing your
appearance (a total of 2 seats). In order to maintain our obligation under the Rules of the
House to ensW'e that Committee hearings are open to the public, we cannot deviate from
this policy.

       Should you 01' your staff have any questions 01' need additional information, please
contact Glen Sears at (202) 226-3027 01' Stephane Le Bouder at (202) 226-3632.

                                   Sincerely,



                                                       Gregory W. Meeks
      Chairman                                         Chairman
      Subcommittee on Oversight and                    Subcommittee on International
      Investigations                                   Monetary Policy and Trade

J)MlGWMlgs/slb

cc: The Honorable Judy Biggert
    The Honorable Gary G. Miller
                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL

                                                             EXPORT-IMPORT BANK

                                                              of the UNITED STATES





     STATEMENT OF OSVALDO LUIS GRATACÓS,

           ACTING INSPECTOR GENERAL

             BEFORE SUBCOMMITTEES 

                     OF THE 

         U.S. HOUSE OF REPRESENTATIVES

       COMMITTEE ON FINANCIAL SERVICES





                                                                  SEPTEMBER 29, 2010
                                                                            4:00 PM
                                     Statement of 

                              Mr. Osvaldo Luis Gratacós 

                               Acting Inspector General 

                       Export-Import Bank of the United States 

                                      Before the 

                        United States House of Representatives 

                          Committee on Financial Services 

                     Subcommittee on Oversight and Investigations 

               & Subcommittee on International Monetary Policy and Trade 


                                September 29, 2010 at 4:00 p.m. 


         Good afternoon, Chairman Moore, Chairman Meeks, Ranking Member Biggert, Ranking
Member Miller, and distinguished members of these honorable Subcommittees.


         Thank you for the invitation and opportunity to testify before you about the activities of the
Office of Inspector General (OIG) and the programs and operations of the Export-Import Bank
(Ex-Im Bank). Before I continue, I would like to thank the Almighty for this opportunity, my
family, and the members of the Ex-Im OIG staff, a group of career public servants who make the
work possible and are committed to the OIG mission of preventing and detecting fraud, waste, and
abuse.

I.       Background

         The Ex-Im Bank is the official export credit agency (“ECA”) of the United States. Ex-Im
Bank supports the financing of U.S. goods and services in international markets, turning export
opportunities into actual sales that help U.S. companies of all sizes to create and maintain jobs in the
United States. Ex-Im Bank has programs to address short, medium, and long-term needs of
exporters; assuming the credit and country risks that the private sector is unable or unwilling to
accept. Ex-Im Bank also helps U.S. exporters remain competitive by countering the export financing
provided by foreign governments on behalf of foreign companies. At the same time, Ex-Im Bank
Statement of Osvaldo Luis Gratacós                                                                              September 29, 2010
Acting Inspector General


must safeguard taxpayer resources by determining that there is a reasonable likelihood of repayment
with respect to each of its transactions.


          Ex-Im OIG was statutorily created in 2002 1 but the Inspector General (IG) did not officially
take office until August 2007. 2 By the time the IG was sworn in, Ex-Im Bank had experienced two
significant and high profile fraud cases, related to its Medium-Term (MT) loan program, totaling
over $200 million. The MT program provides insurance and guarantees (up to 85% of loan
amount) to businesses, including small businesses, with repayment terms to up to five years (seven
years in certain cases). Due to limited market capacity for this product, Ex-Im Bank aggressively
marketed, utilized, and enhanced its MT program in hopes of increasing participation and
expanding Ex-Im Bank’s business. Improper implementation of due diligence and underwriting
practices, inadequate monitoring tools, and lack of compliance functions contributed to loses
attributable to the MT program.


          Acting upon the above referenced exposure and recommendations from Ex-Im Bank’s
management, Ex-Im OIG focused its initial efforts on auditing the MT program and its information
technology support, as well as investigating fraud-related matters referred to our office or uncovered
by our staff. Our initial audits of the MT program’s business processes and its IT support reported,
in relevant part, the following findings: 3

           Finding 1: Insufficient Credit Underwriting, Due-Diligence Requirements, and
            Processes
           Finding 2: Lack of Early Warning/Delinquency and Performance Reporting
            Capabilities
           Finding 3: Insufficient Lender Oversight and Quality Assurance Control Activities

1
    Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, Sec 22 (June 14, 2002).
2
    I had the privilege of joining Ex-Im OIG in 2008, as the first person hired by then IG, Michael W. Tankersley, and worked
    closely with the IG in establishing the organization. Since October 2009, I have had the honor of serving the American people as
    the Ex-Im Bank Acting Inspector General.
3
    Report can be found at
    http://www.exim.gov/oig/documents/MT_Program_Business_Process_Final_Audit_Report.pdf

                                                         2 of 12                                         Office of Inspector General
                                                                                                  Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                          September 29, 2010
Acting Inspector General


           Finding 4: Insufficient Exposure Fee Pricing Structure for Non-Sovereign Transactions
           Finding 5: Consequences of 100% Guarantee for Non-Sovereign Transactions
           Finding 6: Processing Time Inefficiencies; Definition of a Complete Application
           Finding 7: Lack of Strategy and Vision for the MT Program
           Finding 8: Management, Oversight, and Accountability of IT Support for the MT
            Program Needs Strengthening 4


          I am glad to report that Ex-Im Bank has addressed some of the findings and
recommendations listed and referenced above. Ex-Im Bank continues to make progress towards
completion of some of the open recommendations made by this office and listed in Appendix B
herein and our follow-up report issued this year. 5


          Furthermore, since reaching current staffing levels in April 2009, the OIG has had
remarkable success as will be shown by the Semiannual Report to Congress to be issued next month.
Specifically, the OIG has issued fifteen (15) audit and special reports containing over fifty (50)
recommendations and suggestions for improving Ex-Im Bank programs and operations, including
the ones contained in MT program related audits. Our investigative efforts have resulted in a
number of law enforcement actions, including: fifty-one (51) indictments and arrests relating to over
$45 million in claims paid by Ex-Im Bank; one conviction; over eighty (80) management referrals
for actions; and over $26 million in program savings due to policy cancelations arising of our
investigative efforts. Moreover, the OIG is currently investigating forty-eight (48) open matters
representing approximately $327 million in claims paid by Ex-Im Bank (or around 13% of all Ex-Im
Bank claims paid as of the end of FY 2009). All of this has been accomplished with a very modest
annual budget of $2.5 million (for FY 2009) and a staff of ten professionals.


4
    See Appendix B for open and closed recommendations as reported in Audit report Medium-Term Export Credit Program–
    Information Technology (IT) Systems, Support and Governance, OIG-AR-09-05 (June 12, 2009). Follow up audit, OIG-EV-10-01
    (June 30, 2010). Reports can be found at http://www.exim.gov/oig/index.cfm.
5
    See Appendix A for open and closed recommendations as reported on Follow-Up of Audit Recommendations Reported in Medium
     Term Export Credit Program-Credit & Fraud Risk Management Business Process Improvement, OIG-EV-10-02 (July 7, 2010).
     Report can be found at http://www.exim.gov/oig/documents/Follow_Up_of_Audit_Recommendations_10_02.pdf

                                                       3 of 12                                       Office of Inspector General
                                                                                              Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                                   September 29, 2010
Acting Inspector General


II.          Ex-Im Bank and Small Business

             In 2002, Congress mandated Ex-Im Bank to increase the financing made available to small
businesses from 10% to 20%. 6 The 20% requirement was maintained in the current Ex-Im Bank
reauthorization. 7 The General Accountability Office (GAO) reported that Ex-Im Bank met its small
business mandate in 2006 and 2007. 8 In FY 2009, Ex-Im Bank reported 2,540 small business
transactions exceeding its 20% mandate totaling $4.4 billion (or 21% of all authorizations). 9


             In 2008, GAO took a further look at Ex-Im Bank’s effectiveness in measuring compliance
with small business Congressional mandates. 10 GAO found that Ex-Im Bank had generally
addressed most, but not all, of the legislative functions stated in the 2006 Reauthorization Act by
developing 28 performance standards “ranging from providing excellent customer service to
increasing outreach to small business”. 11 Of particular interest was the lack of performance
standards to address rural recruitment, outreach efforts to reach small businesses employing fewer
than 100 employees, and promoting small business exports in cooperation with Small Business
Administration. 12 Moreover, GAO stated that even though Ex-Im Bank has developed some
performance standards in furtherance of its assistance to small businesses, 27 in total, almost half of
them lacked measurable targets and time frames 13 (emphasis added). Of particular interest was the
lack of performance measures to “monitor progress” for financing socially and economically




6
     Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, Sec 7(a) (June 14, 2002). 

7
     Export-Import Bank Reauthorization Act of 2006, P.L. 109-438(December 20, 2006). 

8
     GAO-08-419T 

9
      Export-Import Bank 2009 Annual Report. 

10
      Export-Import Bank Performance Standards for Small Assistance are in Place but Ex-Im is in the Early Stages of Measuring Their
      Effectiveness, GAO-08-915 (July 2008)
11
      Id. at 3.
12
      Id.
13
      Id.

                                                             4 of 12                                          Office of Inspector General
                                                                                                       Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                             September 29, 2010
Acting Inspector General


disadvantaged businesses. 14 The lack of targets to measure progress and the lack of time frames
prevent Ex-Im Bank management from accurately monitoring progress in achieving its standards.


             The OIG, through its statutory mission, is committed to supporting Ex-Im Bank’s actions in
meeting its mission of assisting in the financing of exports of U.S. goods and services in international
markets, protecting and creating American jobs, and increasing the participation of small businesses
in Ex-Im Bank programs. Ex-Im Bank plays a key role in financing the export of these goods and
services. That role has increased in recent years. Today, the opportunity for increasing American
exports is an important element to our nation’s economic recovery. In FY 2009, Ex-Im Bank
announced record authorization levels reaching $21 billion and has reported authorization levels
surpassing last year’s levels for current FY 2010. Ex-Im Bank’s role coupled with these growth levels
present a valuable opportunity for the OIG to partner with Ex-Im Bank in support of its mission
while exercising OIG’s statutory independence.


             OIG maintains a close monitoring and oversight perspective of Ex-Im Bank operational
strategies, including small business strategies and goals. As Ex-Im Bank addresses the
recommendations presented by GAO, Ex-Im Bank is also in the process of developing and
implementing new strategies and processes geared to accomplish President Barack Obama’s goal of
doubling exports in the next five years. 15 A significant component in achieving that goal is the focus
on attracting more small businesses to participate in export programs. Of importance to this office
are the export-credit programs offered by the Ex-Im Bank.




14
     Id. 

15
     President Barack Obama launched this goal during the State of the Union address on January 26, 2010. 


                                                         5 of 12                                        Office of Inspector General
                                                                                                 Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                           September 29, 2010
Acting Inspector General


           Currently, Ex-Im Bank is taking steps to attract more small business participation. Some of
the more visible steps are:

           A). created a Small Business Committee (as required by Export-Import Bank
               Reauthorization Act of 2006); 16
           B). established a Senior Vice-President for Small Business reporting to Ex-Im Bank
               President & Chairman;
           C). expanded short-term content eligibility provisions (covering U.S. content on
               transactions even if the U.S. content is less that 50% of transaction value); 17
           D). Export Live events nationwide (educational conferences involving other federal
               agencies);
           E). introduced new products (re-insurance and supply-chain financing);
           F). increasing Delegation of Authority approval thresholds in order to expedite transactions;
           G). reorganization to create cell groups to increase approval cycle time for medium and
               short term applications;
           H). “express” application approval policies (for small business transactions under $500,000);
           I). increase small business staffing under the Senior Vice-President for Small Business18;
           J). increasing regional offices’ staffing to recruit more businesses;18
           K). opening of additional regional offices 18 .


           Ex-Im Bank has made significant progress in its effort to increase small business
participation, although it is premature to audit the steps discussed above to determine their
effectiveness. However, it is the OIG opinion that Ex-Im Bank has taken numerous steps in
addressing some of the findings reported in the GAO audits, but has not fully developed all the
performance standards, performance measures, and targeted time frames highlighted by GAO. 19
Being able to accurately report and measure small business participation and exports would only
enhance Ex-Im Bank’s ability to achieve the National Export Initiative’s goal.


16
     Export-Import Bank Reauthorization Act of 2006, P.L. 109-438(December 20, 2006).
17
     The policy was in effect since the late 1960’s.
18
     Pending budget increase authority under FY 2011 OMB submission.
19
     Ex-Im Bank still uses the 2009-2011 Small Business Plan audited by GAO. Ex-Im Bank is currently preparing the 2011-2013
     Small Business Plan which will address some of the strategies arising out of the National Export Initiative.

                                                       6 of 12                                        Office of Inspector General
                                                                                               Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                                            September 29, 2010
Acting Inspector General




III.      Challenges
             It is our opinion that Ex-Im Bank is facing a number of challenges in its efforts to increase
small business participation as part of the Congressional mandate and the National Export Initiative.
Some of these challenges are:

           Inefficient and Ineffective Information Technology (IT) platform. Ex-Im Bank currently
            uses a fragmented IT platform composed of several databases. These databases do not
            interface with each other, making data mining burdensome and time consuming. Ex-Im
            Bank would benefit from a comprehensive IT platform that interfaces with other Ex-Im
            Bank’s systems. 20
           Compliance and Oversight Procedures for Delegated Authority. Ex-Im Bank is in the
            process of developing processes and procedures to address the monitoring of the
            delegated authority efforts. Compliance factors should be developed to effectively
            monitor uniform consistency of transaction approvals.
           Enhancement of Due Diligence and Credit Underwriting Practices and Training Efforts to
            Address Surge in Application and Potential Decentralized Application Approval Process.
            Given the lessons learned from the MT program, the surge in the number of
            transactions, and insufficient credit information and history from borrowers, it is vital
            that Ex-Im Bank enhances due diligence practices in order to identify fraudulent and
            incomplete transactions. With individual Delegated Authority as high as $10 million,
            Ex-Im Bank needs to develop effective policies, procedures, and compliance practices to
            assess effectiveness of the delegations.
           Limited Staff Resources. In order to accomplish some of the actions stated herein, Ex-Im
            Bank is relying on the President’s FY 2011 Budget request which provides Ex-Im Bank
            with a budget increase as part of the National Export Initiative.
           Developing Performance Standards and Metrics. In order to properly quantify the effect
            and success of the Small Business Strategy, Ex-Im Bank should develop these metrics,
            including those for socially and economically disadvantage businesses, as recommended
            by GAO.
           Properly Develop Simplified Application Processes, Training and Educational Materials for
            First-Time Exporters. Conveying the export financing message in simpler terms may
            allow small businesses to consider exporting their goods for the first time. Also, it would
            encourage future participation.


20
     Ex-Im Online was launched with the purpose of reducing application approval time. Ex-Im Online is a “front-end” data
     gathering system.

                                                        7 of 12                                        Office of Inspector General
                                                                                                Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                           September 29, 2010
Acting Inspector General


          Continued Collaboration and Cooperation with Other Agencies, including Small Business
           Administration and Department of Commerce in order to Reach Out to Small Businesses.
           Enhancing export opportunities require the participation, training, and collaboration of
           other federal agencies. The National Export Initiative addresses and encourages
           collaboration between agencies.

IV.      Conclusion

         In only three years since its inception (and just over one year since reaching current staff
levels), the OIG efforts are having a noticeable impact on Ex-Im Bank’s operations. While Ex-Im
Bank continues to provide export credit and financing as part of its export credit agency functions
and the recently unveiled National Export Initiative, it faces foreseeable challenges in its quests of
achieving the National Export Initiative’s goal. I have highlighted some of the relevant work
performed by the OIG, specifically as it relates to the MT program, in order to illustrate the
importance of proper planning, implementation and oversight of strategies and products and to
incorporate lessons learned from prior Ex-Im Bank’s activities. The OIG will continue enhancing its
independent oversight role by closely focusing on Ex-Im Bank operations in order to improve its
efficiency, meet Congressional requirements, as well as strengthen its efforts in preventing and
detecting fraud, waste, and abuse.


         Chairman Moore, Chairman Meeks, Ranking Members Biggert and Miller and members of
these honorable Subcommittees, thank you once again for the opportunity to testify before you
today. I would be pleased to respond to any questions you may have. Thank you!




                                              8 of 12                                 Office of Inspector General
                                                                               Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                            September 29, 2010
Acting Inspector General



                                            APPENDIX A

             Findings and Recommendations: Medium-Term Export Credit Program – 

              Credit and Fraud Risk Management and Business Process Improvement 

                               (March 30, 2009, OIG-AR-09-04) & 

                         Follow-Up Review (July 7, 2010, OIG-EV-10-02) 


The OIG determined that Ex-Im Bank adequately addressed and closed four of eight
recommendations noted below.
                 Finding – Insufficient Credit Underwriting Due-Diligence
                                Requirements and Processes
 Recommendation 1.
    o Require as part of credit underwriting due-diligence on-site inspections and
       appraisals of the equipment being exported as well as bank/brokerage
                                                                                                   Closed
       statements of obligors and guarantors for MT transactions.
    o Develop a process to manage the quality of appraisers and appraisals
       received.
                               Finding – Lack of Early Warning/Delinquency
                                  and Performance Reporting Capabilities
 Recommendation 2.
    o Institute a defined and standardized process for lenders to report payment
       history.
    o As enhancements are made to Ex-Im Bank’s technology infrastructure,
       significant priority should be given to the end-to-end build out of
       performance reporting capabilities.                                                         Closed
    o Strong consideration should be given to hiring a quantitative analyst with
       experience in the design and implementation of pricing, risk management
       and credit analysis tools and models to lead that effort.
    o Payment frequency for MT transactions should be consistent with local
       country norms.
         Finding – Insufficient Lender Oversight and Quality Assurance Control Activities
 Recommendation 3A.
     o Institute a formal lender oversight function to actively manage and monitor
       performance of transactions on a lender-by-lender basis and to assess the
       quality of lender due-diligence performed on a periodic basis, quarterly at a                Open
       minimum.
     o The lender oversight function should report into a division independent of
       front-office originations such as Credit Review and Compliance.
 Recommendation 3B.
     o Establish a quality assurance function for the MT program responsible for
       managing and monitoring performance of transaction participants.                            Closed
     o Manage the process of performing periodic MT export credit transaction
       file reviews on a sub-sample of transactions.



                                              9 of 12                                  Office of Inspector General
                                                                                Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                            September 29, 2010
Acting Inspector General


                           Finding – Insufficient Exposure Fee Pricing Structure
                                      for Non-Sovereign Transactions
 Recommendation 4.
    o Revamp exposure fee pricing structure for non-sovereign MT program
       transactions to more effectively account for transaction-level risk.
                                                                                                    Open
    o Consider establishing minimum, base exposure fees for non-sovereign MT
       transactions that are at a premium to the OECD floor pricing that the Bank
       utilizes for its exposure fee pricing of sovereign transactions.
            Finding – Consequences of 100% Guarantee for Non-Sovereign Transactions
 Recommendation 5.
     o Evaluate the impact of implementing a greater degree of risk sharing or
                                                                                                   Closed
       other incentives for non-sovereign transactions to reduce the moral hazard
       currently associated with the MT program.
          Finding – Processing Time Inefficiencies: Definition of a Complete Application
 Recommendation 6.
     o Develop a definition of a complete application by defining documentation
       requirements at initial application.
     o Consider creating dedicated teams in Trade Finance Insurance and Credit                      Open
       Underwriting that would be responsible for processing transactions from
       first-time lenders as well as those transactions considered highly complex or
       risky.
                 Finding – Lack of Strategy and Vision for the Medium Term Program
 Recommendation 7.
    o Develop and document a strategic plan for the MT program (even if one is
       not documented for Ex-Im Bank as a whole) identifying the major goals of
                                                                                                    Open
       the MT program over the next 3 to 5 years and the strategies that
       management will deploy to achieve the goals, including the use of
       technology and targets for key performance measures.




                                              10 of 12                                 Office of Inspector General
                                                                                Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                           September 29, 2010
Acting Inspector General



                                             Appendix B

               Results of Follow-Up Testing of Audit Recommendations Reported in 

               Medium-Term Export Credit Program – Information Technology (IT) 

                Systems, Support and Governance (June 12, 2009, OIG-AR-09-05) 


We determined that Ex-Im adequately addressed and closed four of five recommendations noted below.
                  Finding – Management, Oversight and Accountability of IT Support
                              for the MT Program Needs Strengthening
Recommendation 1A.
    o Develop an IT Strategic Plan that is aligned with the MT Program business                       Open
      plan and covers the same time period.
Recommendation 1B.
    o Designate a senior manager with responsibility and accountability for the
      management of the IT systems support for the MT Program throughout its
      life cycle.
    o Direct the designated senior manager to take a leadership role in the ongoing
      development of detailed business requirements in response to strategic
      objectives identified for IT support of the MT Program and requests for
      enhancements from system users and in the communication of those business                      Closed
      requirements to the Office of the Chief Information Officer (OCIO).
    o Direct the designated senior manager to obtain a plan of action and milestone
      schedule from the OCIO that addresses all outstanding Change
      Requests/defects, which should include all system capabilities required to meet
      management’s objectives for the MT Program, and to take prompt action to
      ensure the OCIO has timely and appropriately prioritized and developed a
      well documented plan to address each Change Request/defect.
                Finding – IT Systems that Support the MT Program Need Improvement
Recommendation 2A.
    o Define and document the key transactional data fields that must be stored
      across all Ex-Im Bank programs and the structures and relationships between
      them. This data model would address the problems related to multiple
      participant files and other common reference data. The data model would
      also highlight information needs that are not currently met by existing
      databases or applications.
    o Develop, document and implement a plan to enhance the functional
                                                                                                     Closed
      capabilities and interoperability of Ex-Im On-Line (EOL) and the other
      systems supporting MT Program transactions, with a focus on design and
      implementation of embedded system controls, such as:
             automation of MT lender rating and credit scoring models;
             automated system alerts that warn of transaction participants with
                 prior claims history as well as denied, withdrawn or fraudulent
                 transactions across all Ex-Im Bank lending programs; and
   o   automated monitoring of all MT Program transactions regardless of size.


                                             11 of 12                                 Office of Inspector General
                                                                               Export-Import Bank of the United States
Statement of Osvaldo Luis Gratacós                                                           September 29, 2010
Acting Inspector General


Recommendation 2B.
    o Develop data repositories that consolidate and organize the key transactional                  Closed
      data fields.
                       Finding – Systems Development Process Needs Improvement
Recommendation 3: Implement:
   o   A user-friendly process for submitting and accepting new end user business
       requirements as it relates to requests for system enhancements. This process
       should also facilitate improved communication between the OCIO resources
       and end users to ensure that business requirements are accurately designed
       and that justification is provided for denied requests.
   o   A more robust testing program that a) includes the development of a
       comprehensive suite of test cases and test scripts that can be automatically                  Closed
       rerun multiple times and b) requires formal involvement of MT users in the
       development of the test cases, the execution of the tests and the sign-off of
       test results.
   o   A more formal and comprehensive training program for EOL system users.
       The training should focus not only on the mechanics of the system but also
       on the policies and processes that the system is supporting. Details on the
       training program should be made available on Ex-Im Bank’s website




                                             12 of 12                                  Office of Inspector General
                                                                               Export-Import Bank of the United States
      Office of Inspector General

Export-Import Bank of the United States

       811 Vermont Avenue, NW

        Washington, DC 20571

             202-565-3908

           www.exim.gov/oig

